TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                Inspection of the Internal Revenue Service’s
                        Travel Gainsharing Program



                                           May 6, 2013

                            Reference Number: 2013-IE-R005




    This report has cleared the Treasury Inspector General for Tax Administration (TIGTA) disclosure
           review process and information determined to be restricted from public release has
                                   been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 6, 2013



 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Inspection of the Internal Revenue Service’s
                             Travel Gainsharing Program (# IE-12-012)

 This report presents the results of our inspection to determine the effectiveness of the controls
 established over the travel gainsharing program.

 Synopsis
 The Internal Revenue Service (IRS) established the Gainsharing Travel Savings Program
 (hereafter referred to as the gainsharing program) to allow IRS employees, who save the
 Government money while traveling, to receive one-half of the amount of those savings as an
 award. In Fiscal Years 2008 through 2011, 2,122 IRS employees participated in the gainsharing
 program and received approximately $1.9 million in awards. The IRS generally has adequate
 controls in place to ensure adherence with gainsharing program requirements. However, we
 could not verify the accuracy of most awards in our sample because the IRS could not locate
 adequate supporting documentation. Additionally, IRS employees did not follow some of the
 gainsharing program requirements when applying for gainsharing program awards, which
 resulted in inaccurate award amounts. Better managerial oversight may have prevented many of
 these errors.
                                 Inspection of the Internal Revenue Service’s
                                         Travel Gainsharing Program



Recommendations
We recommended that the Chief Financial Officer (CFO) amend the Internal Revenue Manual1
to better define document retention standards for gainsharing program awards and supporting
documentation. Additionally, the CFO should either require that each business unit establish a
centralized repository for gainsharing program award documentation or establish a centralized
repository within the Office of the CFO for all gainsharing program award documentation
generated Service-wide. We also recommend that the CFO revise Form 13631-A, IRS Travel
Savings, to include a space for the first-level manager’s initials, and that the CFO clarify in the
Internal Revenue Manual that an employee can only receive one gainsharing program award per
fiscal year.

Response
IRS management agreed with all of the recommendations in the report. The CFO plans to better
define document retention standards, require each business unit to establish a centralized
repository for such documentation, revise Form 13631-A, and clarify the number of gainsharing
program awards an employee may receive in a fiscal year.
Management’s complete response to the draft report is included as Appendix VI.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




1
 The Internal Revenue Manual is the IRS’s primary source of instructions to its employees relating to the
administration and operation of the IRS. The manual contains the directions employees need to carry out their
operational responsibilities.
                                                                                                                2
                                      Inspection of the Internal Revenue Service’s
                                              Travel Gainsharing Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Most Awards Were Not Properly Documented ............................................ Page 3
                    Recommendation 1:.......................................................... Page 4

          Adequate Management Oversight May Have Prevented Errors ................... Page 5
                    Recommendation 2:.......................................................... Page 6

                    Recommendation 3:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measures............................................................... Page 14
          Appendix V – Overall Results by Business Unit .......................................... Page 15
          Appendix VI – Management’s Response to the Draft Report ...................... Page 18
        Inspection of the Internal Revenue Service’s
                Travel Gainsharing Program




              Abbreviations

CFO     Chief Financial Officer
FY      Fiscal Year
IRM     Internal Review Manual
IRS     Internal Revenue Service
TIGTA   Treasury Inspector General for Tax Administration
                                  Inspection of the Internal Revenue Service’s
                                          Travel Gainsharing Program




                                                Background

 In November 1999, the Internal Revenue Service (IRS) initiated the Gainsharing Travel Savings
 Program (hereafter referred to as the gainsharing program) to allow IRS employees, who save
 the Government money while traveling, to receive one-half of the amount of those savings as an
 award. Employees can qualify for the program by either paying less than the maximum lodging
 rate in a location or by using frequent traveler benefits to purchase airline, bus, or railroad tickets
 for official travel. While the employee must realize a minimum of $100 in savings in a given
 fiscal year to receive a gainsharing program award, there is no limit to the gainsharing program
 award amount that an employee can receive.
 The Chief Financial Officer (CFO) is responsible for establishing the gainsharing program at the
 highest level, the requirements for which are outlined in the Internal Revenue Manual (IRM).1
 Individual business units are then responsible for adhering to gainsharing program requirements
 and may write supplemental instructions to assist their staff in doing so.
 Approximately $1.9 million in gainsharing program awards were paid to 2,122 IRS employees in
 Fiscal Years (FY) 2008 through 2011. The average award amount per employee was $665.
 Figure 1 documents the number of IRS employees who participated in the program and the funds
 awarded each fiscal year.
                      Figure 1: Overview of the IRS Gainsharing Program
                                 FY	2008	          FY	2009	          FY	2010	          FY	2011	          All	Years	
 Number	of	Employees	
                                          600               711               665               883            2,1222
 Participating	
 Total	Funds	Awarded	               $391,438          $496,380          $422,627          $590,228         $1,900,673
 Average	Award	
                                      $652             $698                  $636              $668              $665
 Amount	per	Employee	
Source: IRS gainsharing program data for FYs 2008 through 2011.

 This review was performed at the IRS National Headquarters in Washington, D.C., during the
 period June 2012 through January 2013. We conducted this inspection in accordance with the
 Council of the Inspectors General for Integrity and Efficiency Quality Standards for Inspections.



 1
   The IRM is the IRS’s primary source of instructions to its employees relating to the administration and operation
 of the IRS. The manual contains the directions employees need to carry out their operational responsibilities.
 2
   The number of employees participating during each fiscal year does not equal the number of employees
 participating in all years because some employees participated in the program during multiple fiscal years.
                                                                                                               Page 1
                           Inspection of the Internal Revenue Service’s
                                   Travel Gainsharing Program



Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                                    Inspection of the Internal Revenue Service’s
                                            Travel Gainsharing Program




                                         Results of Review

The IRS generally has adequate controls in place to ensure adherence with gainsharing program
requirements. However, we observed that these controls are not always followed. First, most
awards in our sample were not properly documented in accordance with the IRM. Second, IRS
employees did not follow some of the gainsharing program requirements when applying for
gainsharing program awards, resulting in inaccurate award amounts. Better managerial oversight
may have prevented many of these errors.

Most Awards Were Not Properly Documented
According to the IRM, as an employee accumulates travel savings over a fiscal year, he or she
documents these savings using Form 13631-A, IRS Travel Savings. The employee must then
provide this form and required documentation, including travel vouchers and receipts, to his or
her first- and second-level managers for review. After the award is approved, both the first-level
manager and the business unit must maintain copies of Form 13631-A and supporting
documentation3 for six years and three months. It should be noted that the IRS does not maintain
the documentation in a central location for all business units, and the IRM does not require that
each business unit maintain its gainsharing program documentation in a central location.
The Treasury Inspector General for Tax Administration (TIGTA) selected a judgmental sample4
of 77 gainsharing program awards (totaling approximately $279,000) to review for adherence
with program requirements. The IRS was able to provide adequate documentation for
26 (approximately 34 percent) of 77 gainsharing program awards. However, the IRS did not
provide any documentation for 13 (about 17 percent of the sample) awards and was unable to
provide adequate documentation for 38 (about 49 percent of the sample) awards. These award
amounts collectively totaled $197,416.
The IRS failed to provide adequate documentation or provided no documentation for
approximately 66 percent of the sample population, primarily because documentation was not
properly retained by either the employee’s first-level manager or business unit. Furthermore, the
IRM section related to gainsharing program awards does not explicitly state how long
gainsharing program documentation should be retained. The documentation retention standard
for gainsharing program awards and supporting documentation is six years and three months, just
as it is for other travel documents. However, officials in one business unit believed that
gainsharing program documentation should be retained for three years (the usual retention period


3
    IRM 1.32.14.6.2 (Sep. 27, 2011) and IRM 1.32.14.6.4 (Sep. 27, 2011).
4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                 Page 3
                                 Inspection of the Internal Revenue Service’s
                                         Travel Gainsharing Program



for other award documents), resulting in the destruction of gainsharing program documentation
after that period of time. CFO officials believe employees in other business units may also have
prematurely destroyed supporting documentation related to other gainsharing program awards in
our sample.
Figure 2 summarizes the level of documentation provided for the 77 awards sampled. Examples
of inadequate documentation include missing Forms 13631-A,5 travel vouchers, hotel receipts,
and evidence of frequent flyer travel savings. Failure to properly document a gainsharing
program award in accordance with the IRM prevents a third party from verifying the accuracy of
the awards.
                           Figure 2: Level of Documentation Provided
                         for the Gainsharing Program Awards Sampled




    Source: Results from TIGTA case reviews. See Appendix V, Figure 7, for a summary of the extent of the
    documentation provided by each IRS business unit included in our sample.

Recommendation
Recommendation 1: The CFO should amend the IRM to better define document retention
standards for gainsharing program awards and supporting documentation to match that of other
travel documents. The IRM should also either require that each business unit establish a
centralized repository for gainsharing program award documentation or establish a centralized


5
 Documentation provided for eight awards did not include a Form 13631-A. For those awards, TIGTA did not
further review the documentation provided.
                                                                                                            Page 4
                                  Inspection of the Internal Revenue Service’s
                                          Travel Gainsharing Program



repository within the Office of the CFO for all gainsharing program award documentation
generated Service-wide.
           Management’s Response: IRS management agreed with this recommendation. The
           CFO plans to revise the IRM to better define document retention standards for
           gainsharing program awards and supporting documentation to match that of other travel
           documents. In addition, the revised IRM will require each business unit to establish a
           centralized repository for such documentation.

Adequate Management Oversight May Have Prevented Errors
IRS employees are not adhering to some of the gainsharing program requirements established in
the IRM when applying for gainsharing program awards. Examples include employees not
deducting excess transportation costs, using incorrect travel savings forms, requesting multiple
awards per fiscal year, and requesting awards less than the minimum amount required to qualify
for the program. Better management oversight and using the correct travel savings form may
have prevented many of these errors.

The majority of the awards reviewed lacked managerial oversight
According to the IRM, as part of the gainsharing program award approval process, first-level
managers are responsible for reviewing Form 13631-A and supporting documentation. The
first-level manager initials and dates the bottom of Form 13631-A, indicating concurrence.6 The
second-level managers must then approve the gainsharing program award by signing and dating
the form.7 We received travel savings forms for 56 gainsharing program awards. In 47
(approximately 84 percent) of these cases, the first-level managers did not initial the travel
savings forms to indicate their review and concurrence. Furthermore, second-level managers did
not sign-off on 16 (approximately 29 percent) of the awards reviewed.
We believe that proper management oversight could have prevented many of the errors described
in the remainder of this report. Figure 3 summarizes, by fiscal year, the number of awards where
evidence of first- or second-level managerial review was missing.




6
    IRM 1.32.14.6.2 (Sep. 27, 2011) and IRM 1.32.14.10(2) (Sep. 27, 2011).
7
    IRM 1.32.14.6.3 (Sep. 27, 2011).
                                                                                           Page 5
                               Inspection of the Internal Revenue Service’s
                                       Travel Gainsharing Program



                 Figure 3: Awards Where the First-Level Manager or the
                  Second-Level Manager Did Not Review Form 13631-A




  Source: Results from TIGTA case reviews. See Appendix V, Figures 8 and 9, for further information, by
  both fiscal year and business unit, about the number of awards where evidence of first- or second-level
  managerial review was missing.

Recommendation
Recommendation 2: The CFO should revise Form 13631-A to include a space for the
first-level manager’s initials.
       Management’s Response: IRS management agreed with this recommendation. The
       CFO plans to revise Form 13631-A to include a space for the first-level manager’s
       initials.

Several errors were not detected and some employees did not deduct excess
transportation costs
Proper managerial oversight should provide assurance that program requirements are followed
and award amounts are calculated correctly. TIGTA reviewed awards for adherence with
program requirements and accuracy, and disagreed with the calculation of 17 award amounts for
a variety of reasons, including failure to deduct excess transportation costs, use of incorrect per
diem rates, and claiming lodging expenses when the employee was not traveling. These are
errors that a manager’s review should have been detected; however, 16 of 17 of these awards
lacked evidence of one or both levels of managerial review. These inaccurate award amounts led
to a net overpayment of $6,897 to IRS employees out of the $175,787 in funds awarded that

                                                                                                            Page 6
                                   Inspection of the Internal Revenue Service’s
                                           Travel Gainsharing Program



TIGTA had enough information to review. Figure 4 summarizes, by fiscal year, the number of
award amounts with which we disagreed.
                                 Figure 4: Inaccurate Award Amounts




                Source: Results from TIGTA case reviews. See Appendix V, Figure 10, for further
                information about these awards by both fiscal year and business unit.

According to the IRM, an employee must deduct any excess transportation or miscellaneous
costs from the lodging savings. Excess transportation costs include vehicle rentals when one
would not normally be rented, driving a privately owned vehicle more miles than would
normally be traveled, and taxi or other public transportation fares that would not normally be
incurred, so that the employee could obtain free or reduced lodging.8
We found that IRS employees are not consistently deducting excess transportation costs from
their lodging savings. We identified 16 cases where the employee incurred excess transportation
costs. In 12 of these cases, IRS employees had already properly deducted excess transportation
expenses. However, for the other four awards, the employees should have deducted excess
transportation costs but did not. As a result, the IRS overpaid gainsharing program awards by
$2,394 (approximately 35 percent of the $6,897 previously cited).

IRS employees rarely used correct forms
The IRM requires IRS employees to document gainsharing program savings by using
Form 13631-A.9 Of the 56 awards sampled where a travel savings form was provided, IRS

8
    IRM 1.32.14.8 (Sep. 27, 2011).
9
    IRM 1.32.14.7(3) (Sep. 27, 2011).
                                                                                                  Page 7
                                Inspection of the Internal Revenue Service’s
                                        Travel Gainsharing Program



employees used the correct form for 12 awards and used alternative forms for 44 awards.10
Form 13631-A contains instructions for calculating award amounts that are not included in the
alternate forms provided. Using alternative forms may increase the risk of award calculation
errors, resulting in inaccurate award payments. Figure 5 summarizes, by fiscal year, the number
of requests submitted using alternative travel savings forms.
        Figure 5: Requests Submitted With Alternative Travel Savings Forms




      Source: Results from TIGTA case reviews. See Appendix V, Figure 11, for further information about
      the use of alternative travel savings forms by both fiscal year and business unit.

Some IRS employees received multiple awards per fiscal year
Although not specifically stated in the IRM, CFO officials indicated that an employee should not
submit more than one claim for a gainsharing program award per fiscal year. Additionally,
guidance issued by the Small Business/Self-Employed Division states that only one gainsharing
program award should be given in a fiscal year.11 Of the 2,957 awards given in FYs 2008
through 2011, in 87 instances, an employee received two or more gainsharing program awards in
one fiscal year. While this occurred in less than 3 percent of the gainsharing program awards
issued, multiple submissions result in unnecessary paperwork and increased employee time spent
reviewing and processing these requests. In one case, an employee received six awards during
FY 2011, while another employee received five awards during the same year. Figure 6



10
   The IRS provided documentation for 64 awards, but the documentation provided for eight awards did not include
a Form 13631-A or alternative travel savings form.
11
   IRS, SB/SE Division, SB/SE Gainsharing Checklist (2010).
                                                                                                          Page 8
                                   Inspection of the Internal Revenue Service’s
                                           Travel Gainsharing Program



summarizes, by fiscal year, the number of instances where multiple awards were given to an
employee in a fiscal year.
                        Figure 6: Instances Where an Employee Received
                              More Than One Award per Fiscal Year




               Source: Results from TIGTA analysis of IRS gainsharing program data for FYs 2008
               through 2011.

Recommendation
Recommendation 3: The CFO should clarify in the IRM that only one award can be given to
employees per fiscal year.
           Management’s Response: IRS management agreed with this recommendation. The
           CFO plans to revise the IRM to clarify that an employee can only receive one gainsharing
           program award per fiscal year.

A few gainsharing program awards are less than the minimum amount required to
qualify for an award
The IRM states that an employee must realize a minimum of $100 in savings within a fiscal year
to receive a gainsharing program award.12 However, our analysis of the 2,957 awards given in
FYs 2008 through 2011 shows that the IRS gave gainsharing program awards to seven



12
     IRM 1.32.14.7(1) (Sept. 27, 2011).
                                                                                                  Page 9
                           Inspection of the Internal Revenue Service’s
                                   Travel Gainsharing Program



employees for travel savings of less than $100, which resulted in $266 awarded to employees
who did not qualify for the award.




                                                                                       Page 10
                                 Inspection of the Internal Revenue Service’s
                                         Travel Gainsharing Program



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of the controls established over the
gainsharing program. To accomplish this objective, we:
I.       Identified the controls in place to ensure that gainsharing program awards were granted
         correctly.
         A. Interviewed IRS personnel from the Office of the CFO.
         B. Reviewed IRS policies and procedures to determine the controls in place.

II.      Determined if gainsharing program awards were appropriately awarded in compliance
         with IRS policies and procedures.
         A. Reviewed gainsharing program data for FYs 2008 through 2011 to determine if:1
             1. Any individuals received more than one award in a given fiscal year.
             2. Each recipient saved the IRS at least $100 in eligible travel costs for a given fiscal
                year.
         B. Extracted a judgmental sample2 of gainsharing program awards from an IRS
            Integrated Financial System extract for those records with Object Code 12.3
            (Incentives) and Commitment Item 1236 (Gainsharing Award) for FYs 2008 through
            2011. Reviewed supporting documentation to determine if:3
             1. Savings were fully documented,
             2. Required documentation was retained by the appropriate official, and
             3. Awards met the requirements established by IRS policies.




1
  We reviewed the gainsharing program data to ensure that all transactions were processed during FYs 2008 through
2011, and we compared a judgmental sample of transactions to supporting documentation.
2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
3
  A judgmental sample was selected to isolate transactions with specific risk factors, such as high-dollar awards and
employees who received more than one award during the fiscal year.
                                                                                                            Page 11
                           Inspection of the Internal Revenue Service’s
                                   Travel Gainsharing Program



                                                                     Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections and Evaluations
James Douglas, Supervisory Evaluator
Lindsay Steward, Program Analyst




                                                                          Page 12
                          Inspection of the Internal Revenue Service’s
                                  Travel Gainsharing Program



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Counsel CC
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Chief Technology Officer OS:CTO
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Counsel CC
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS: CFO
       Chief Technology Officer OS:CTO
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 13
                                    Inspection of the Internal Revenue Service’s
                                            Travel Gainsharing Program



                                                                                                    Appendix IV

                                        Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measures:
      Cost Savings - Questioned Costs; $197,416 in funds expended (see page 3).
      Cost Savings - Unsupported Costs; $7,163 in funds expended (see pages 6-7 and 10).

Methodology Used to Measure the Reported Benefit:
TIGTA selected a judgmental sample1 of IRS gainsharing program awards to test. The
judgmental sample was comprised of 77 of the 2,957 gainsharing program awards given in
FYs 2008 through 2011, totaling approximately $279,000. We also identified individuals who
received award amounts totaling less than $50 in FYs 2008 through 2011. The IRS should deny
these awards because the travel savings were below the minimum requirement.




1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 14
                                 Inspection of the Internal Revenue Service’s
                                         Travel Gainsharing Program



                                                                                              Appendix V

                       Overall Results by Business Unit

                                                     Legend
       AWSS                        Agency-Wide Shared Services
       CFO                         Chief Financial Officer
       CI                          Criminal Investigation
       IT                          Information Technology
       LB&I                        Large Business and International Division
       SB/SE                       Small Business/Self-Employed Division
       TE/GE                       Tax Exempt and Government Entities Division
       W&I                         Wage and Investment Division


                   Figure 7: Gainsharing Program Awards Documentation
                    Total	            No	              Inadequate	          Adequate	
  Business	        Sample	       Documentation	       Documentation	      Documentation	      Total	       Error	
    Unit	         Requested	       Provided	            Provided	           Provided	         Errors	      Rate	

Chief	Counsel	               3                   3                    0                   0          3       100%

AWSS	                        3                   2                    1                   0          3       100%
CFO	                         3                   1                    2                   0          3       100%
CI	                          9                   1                    5                   3          6          67%
IT	                          8                   0                    5                   3          5          63%

LB&I	                        3                   0                    1                   2          1          33%
SB/SE	                      25                   4                   12                   9         16          64%
TE/GE	                      12                   0                    3                   9          3          25%
W&I	                        11                   2                    9                   0         11       100%

Totals	                     77                  13                   38                  26         51          66%
Source: Results from TIGTA case review of a sample of IRS gainsharing program data for FYs 2008 through 2011.


                                                                                                         Page 15
                                 Inspection of the Internal Revenue Service’s
                                         Travel Gainsharing Program



            Figure 8: Awards Where the First-Level Manager Did Not Initial
                         Form 13631-A, IRS Travel Savings
Business	                                                                   Total	        Sample	        Error	
                  FY	2008	       FY	2009	       FY	2010	      FY	2011	
Unit	                                                                       Errors	        Items	        Rate	
AWSS	                       0              0             0             0              0              1        0%
CFO	                        0              1             1             0              2              2      100%
CI	                         1              5             2             0              8              8      100%
IT	                         0              0             3             4              7              7      100%
LB&I	                       0              0             2             1              3              3      100%
SB/SE	                      0              5             6             1             12             20       60%
TE/GE	                      3              0             3             6             12             12      100%
W&I	                        0              0             1             2              3              3      100%
Total	Errors	               4          11            18            14                47
Source: Results from TIGTA case review of a sample of IRS gainsharing program data for FYs 2008 through
2011.

Figure 9: Awards Where the Second-Level Manager Did Not Sign Form 13631-A
  Business	                                                                Total	         Sample	        Error	
                FY	2008	        FY	2009	       FY	2010       FY	2011
    Unit	                                                                  Errors	         Items	        Rate	
 AWSS	                  0             0              0             0                 0               1        0%
 CFO	                   0             0              0             0                 0               2       0%
 CI	                    0             1              1             0                 2               8      25%
 IT	                    0             0              2             2                 4               7      57%
 LB&I	                  0             0              2             0                 2               3      67%
 SB/SE	                 0             2              0             0                 2              20      10%
 TE/GE	                 1             0              0             2                 3              12      25%
 W&I	                   0             0              1             2                 3               3     100%
 Total	                1           3           6           6             16
 Errors	
Source: Results from TIGTA case review of a sample of IRS gainsharing program data for FYs 2008 through
2011.




                                                                                                           Page 16
                                Inspection of the Internal Revenue Service’s
                                        Travel Gainsharing Program



                              Figure 10: Inaccurate Award Amounts
  Business	                                                               Total	           Sample	      Error	
                   FY	2008	     FY	2009	       FY	2010	   FY	2011	
    Unit	                                                                 Errors	           Items	      Rate	
Chief	                    0            0              0             0               0              3        0%
Counsel	
AWSS	                     0            0              0             0               0             1        0%
CFO	                      0            1              1             0               2             2      100%
CI	                       1            2              1             0               4             8       50%
IT	                       0            0              1             0               1             7       14%
LB&I	                     0            0              1             1               2             3       67%
SB/SE	                    0            4              0             1               5            20       25%
TE/GE	                    0            0              1             1               2            12       17%
W&I	                      0            0              1             0               1             3       33%
Total	Errors	               1          7              6             3             17
Source: Results from TIGTA case review of a sample of IRS gainsharing program data for FYs 2008 through
2011.

        Figure 11: Awards Submitted With Alternative Travel Savings Forms
            Business	Unit	        FY	2008      FY	2009    FY	2010       FY	2011         Total	Errors	
            Chief	Counsel	                 0          0         0             0                    0
            AWSS	                          0          0         0             0                    0
            CFO	                           0          1         1             0                    2
            CI	                            1          5         2             0                    8
            IT	                            0          0         3             4                    7
            LB&I	                          0          0         2             0                    2
            SB/SE	                         0          7         3             1                   11
            TE/GE	                         3          0         3             6                   12
            W&I	                           0          0         1             1                    2
            Total	Errors	                  4         13        15            12                   44
           Source: Results from TIGTA case review of a sample of IRS gainsharing program data
           for FYs 2008 through 2011.




                                                                                                         Page 17
         Inspection of the Internal Revenue Service’s
                 Travel Gainsharing Program



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 18
Inspection of the Internal Revenue Service’s
        Travel Gainsharing Program




                                               Page 19
Inspection of the Internal Revenue Service’s
        Travel Gainsharing Program




                                               Page 20
